November 22, 2002

The Honorable James G. Huse, Jr.
Inspector General
Social Security Administration
6401 Security Boulevard, Suite 300
Baltimore, MD 21235

Dear Mr. Huse:

       This is in response to your letter to me dated March 15, 2002. In
your letter, you asked the Department of Justice Office of the Inspector
General (OIG) to assess whether the Immigration and Naturalization
Service (INS) would meet timeframes for posting information about aliens
into INS databases that are used by the Social Security Administration
(SSA) to issue Social Security Numbers (SSNs) to aliens.

       Since the terrorist attacks of September 11, 2001, the attention on
the national security implications of issuing SSNs to aliens has
intensified. As you have pointed out on various occasions, the current
process for issuing SSNs is vulnerable to fraud because SSA procedures
do not require the verification of an alien’s immigration status prior to
issuing an SSN. You have recommended that the SSA implement
independent verification of documents from the INS until the
Enumeration at Entry program was completed.1 In a 2001
Congressional Response Report, you suggested that the SSA obtain
verification from the INS as to an alien’s immigration status before
issuing an SSN.

      In your letter to me, you stated that it is your understanding that
delays have occurred in the INS’s initiatives to enter information about

        1 “Enumeration at Entry” is a term used by the SSA that refers to the process of

automatically assigning SSNs to newly admitted immigrants based on electronic
verification of their work eligibility status by the INS. The process uses DataShare to
transmit immigrant immigration status from the INS to the SSA. The process obviates
the need for the SSA to visually inspect and verify INS documents prior to issuing an
SSN.
aliens in INS databases, and you expressed concern that INS
management of its data entry contractors may not be sufficient and
could negatively impact established timeframes. You therefore asked us
to assess the likelihood that the INS will meet established timeframes for
the following initiatives:

   •   Updating information in INS systems, including the Alien
       Systematic Verification Index (ASVI) and the Nonimmigrant
       Information System (NIIS); and

   •   Implementing the Enumeration at Entry phase of the Department
       of State (DOS)/INS Immigrant Visa DataShare (DataShare)
       process.

        To address your questions about the INS’s ability to meet these
timeframes, we believe it is important to describe the visa application
process and to assess the INS’s timeliness in updating NIIS and its
implementation of the enumeration phase of DataShare. Our review
therefore discusses the visa process from the time aliens file visa
petitions through their entry into the United States, and the process
used by the INS to provide immigrant and nonimmigrant status
information on aliens to the SSA. A copy of our report, “Review of the
Immigration and Naturalization Service’s Ability to Provide Alien
Information to the Social Security Administration,” is enclosed with this
letter.

      In this letter, we summarize the specific answers to your questions
about the INS’s ability to meet identified timeframes for updating
information into its databases.

1. Will the INS meet established timeframes to update ASVI and
NIIS approximately one week after the nonimmigrant is admitted to
the United States?

       According to the information we received, the INS never established
a 1-week standard for updating NIIS. In your letter, you cite new data
entry standards announced by the INS in December 2001, which require
that INS ports of entry ship Forms I-94, Arrival/Departure Record, to the
INS’s data entry contractor within two days of the nonimmigrant’s
admission into the United States. The new standards also require that
the data entry contractor process the Forms I-94 and upload the data
into a database within three days of receiving the forms. From this
information, you inferred that the NIIS data would therefore be available
to the SSA within five days of a nonimmigrant’s admission. However,
this conclusion was not correct, because the new INS time standards



                                    2
apply to only a part of the entire procedure necessary to process the
admission records and update NIIS. When the data entry contractor
completes processing the Forms I-94, the data is transmitted to another
database contractor at a different location for additional processing,
which requires more time before the information is uploaded into NIIS.

      ASVI is the electronic system that acts as an information conduit
that allows the SSA field offices to access selected NIIS data elements.
The INS updates NIIS with Forms I-94 data after a nonimmigrant is
admitted and it uploads selected NIIS data elements into ASVI. That
data is then available to the SSA field offices through the ASVI database.
The availability of the required information is dependent on updating the
selected NIIS data elements, not on updating the ASVI database.

      In response to our review, the INS estimated that the entire
process to upload nonimmigrant information into NIIS should take
approximately 11 to 13 workdays, not 5 workdays. The INS does not
track the actual time required for the collection and processing of the
information. Based on our review, we believe the INS’s estimate that NIIS
data will be available to the SSA within 11 to 13 workdays after a
nonimmigrant is admitted into the United States is based on reasonable
approximations and assumptions. In fact, an informal survey conducted
by your staff in September 2002 showed that 60 percent of the Forms
I-94 data was available to the SSA within 10 calendar days of
nonimmigrants’ admissions into the United States.

2. Will the INS meet established timeframes to implement the
enumeration phase of the Department of State (DOS)/INS Immigrant
Visa DataShare process?

       We concluded that the INS is prepared to implement the
enumeration phase of the DOS/INS Immigrant Visa DataShare process
when the SSA completes its modifications for DataShare. We found that
the INS is able technologically to provide the SSA immigrant status using
DataShare. The INS and the DOS have shared immigrant petition and
application data using DataShare since 1995. The DOS has successfully
transmitted immigrant visas from 15 consular posts to the INS, which
accounted for 60 percent of the immigrant visas issued by the DOS.
Since the DOS expanded DataShare to all its 126 visa-issuing consular
posts, the INS has not experienced any significant technological
difficulties with the process.

      We found that the INS and the DOS have already made software
modifications to accommodate the SSA’s participation in DataShare. In
June 2002, the INS and the DOS tested their portions of DataShare and
stated that they are confident that their portions of the system work.


                                    3
However, the SSA did not participate in the test because it was
addressing the communications protocol and data formatting convention
issues.

      We hope this letter and the enclosed report are helpful to you in
addressing the issues you asked us to examine. If you have any
questions, please contact me on (202) 514-3435, or Paul Price, Assistant
Inspector General for Evaluation and Inspections, on (202) 616-4620.


                                    Sincerely,


                                    /s/ original signed

                                    Glenn A. Fine
                                    Inspector General

Enclosure

cc:   James W. Ziglar
      Commissioner
      Immigration and Naturalization Service

      Vickie L. Sloan
      Director
      Departmental Audit Liaison Office




                                   4
                                    TABLE OF CONTENTS



INTRODUCTION……………………………………………………………….. …….1

  SSA’s Efforts to Improve Control of Issuing SSNs................................ 2
  Purpose of the Review ........................................................................ 2
  Scope and Methodology ...................................................................... 3

PART 1: THE IMMIGRANT VISA PROCESS…………………………………4

  Filing the Immigrant Visa Petition and Application ............................. 4
  U.S. Port of Entry Inspection of Immigrants........................................ 5
  Issuing Social Security Numbers to Immigrants.................................. 7
  Immigrant Visa DataShare ............................................................... 11
  SSA’s Participation in Immigrant Visa DataShare ............................. 11
  INS Implementation of Immigrant Visa DataShare ............................ 15
  INS Management of Immigrant Visa DataShare ................................ 15

PART 2: THE NONIMMIGRANT VISA PROCESS………………………….17

  Filing the Nonimmigrant Visa Petition .............................................. 18
  Filing the Nonimmigrant Visa Application......................................... 18
  U.S. Port of Entry Inspection of Nonimmigrants................................ 19
  Processing and Transmitting Forms I-94 .......................................... 20
  Issuing Social Security Numbers to Nonimmigrants.......................... 20
  INS Processing Time for Nonimmigrant Data .................................... 24
  INS Ability to Ensure the Accuracy of Nonimmigrant Data................ 25

CONCLUSION………………………………………………………………………..27




U.S. Department of Justice                                                                       i
Office of the Inspector General
Evaluation & Inspections Division
                                    INTRODUCTION


      The Social Security Administration (SSA) has been concerned
about the fraudulent acquisition and misuse of Social Security Numbers
(SSNs) for several years. In September 2000, the SSA Office of the
Inspector General (OIG) reviewed 3,557 SSNs and found that the SSA
had issued 999 (28 percent) invalid SSNs. Of these, 949 cases (95
percent) involved fraudulent Immigration and Naturalization Service (INS)
documents.1

       As a result of this discovery, the SSA OIG reiterated two
recommendations to the Social Security Commissioner that were
contained in a 1999 Management Advisory Report.2 Because of the high
rate of SSNs inappropriately assigned due to fraudulent documents, the
SSA OIG recommended that the SSA focus on security rather than on
customer service, and also recommended that the SSA implement
independent verification of documents from the INS until the
Enumeration at Entry program was completed. “Enumeration at Entry”
is a term used by the SSA that refers to the process of automatically
assigning SSNs to newly admitted immigrants based on electronic
verification of their work eligibility status by the INS. The process
obviates the need for the SSA to visually inspect and verify INS
documents prior to issuing an SSN. In a 2001 Congressional Response
Report, the SSA OIG again suggested that the SSA verify all documents
submitted by aliens before the SSA issues an original SSN.3

      Since the terrorist attacks of September 11, 2001, the process for
issuing SSNs has received additional scrutiny because of its national
security implications. In October 2001, the SSA OIG stated, “Most
recently, we learned that SSNs may have been misused by members of
foreign terrorist organizations to infiltrate American society while
planning the terrorist attacks of September 11, 2001.”4


        1“Procedures for Verifying Evidentiary Documents Submitted with Original
Social Security Number Applications,” September 2000, Audit Report A-08-98-41009,
SSA OIG.

       2 “Using Social Security Numbers to Commit Fraud,” May 1999, Management

Advisory Report A-08-99-42002, SSA OIG.

      3 “SSN Misuse: A Challenge for the Social Security Administration,”

October 2001, Congressional Response Report A-08-02-22030, SSA OIG.

        4   Ibid.

U.S. Department of Justice                                                          1
Office of the Inspector General
Evaluation & Inspections Division
SSA’s Efforts to Improve Control of Issuing SSNs

       On July 11, 2002, SSA Deputy Commissioner James B. Lockhart
III announced that the SSA plans to verify the immigration status of all
aliens applying for SSNs who have been in the United States for less than
30 days. It will also electronically verify documents for all nonimmigrant
applicants through access to the
Nonimmigrant Information System
(NIIS).5 If documents cannot be                   Cleaning Up SSN Records
verified through NIIS, the SSA will
automatically initiate a manual              According to a Washington Post
secondary verification procedure,            article, the SSA sent letters to more
which will preclude an alien from            than 800,000 businesses notifying
receiving an SSN until the INS               the employers of SSA records in
verifies the alien’s status.                 which their employees’ names or
                                                SSNs did not match the agency
       The change in the SSA’s                  files. In 1999, the SSA collected
procedures for verifying alien status           $4.9 billion in social security taxes
requires the INS to provide timely              for accounts in which there were
and accurate responses to the SSA’s             discrepancies.
document verification requests.
Further, the use of new or modified                    The SSA attempt to reconcile
electronic databases to conduct the             wage records and the likely
verification process presents                   increase in employer scrutiny of
additional challenges for the SSA               employees’ SSNs may raise the
and INS.                                        need for, and value of, illicitly
                                                obtained, but valid SSNs. Because
Purpose of the Review                           of the “no match” letters, aliens
                                                who are not eligible to work may
      In response to a request from             find making up or stealing SSNs
the SSA OIG, the Department of                  too great a risk. Therefore, the
Justice (DOJ) OIG initiated this                number of aliens who use
limited scope review to determine               counterfeit or fraudulent
whether the INS can update                      documents to apply for SSNs is
information about immigrants and                likely to grow.
nonimmigrants into its databases
and provide that information to the             Source: “Record Checks Displace
SSA in a timely fashion.                        Workers,” The Washington Post, August 6,
                                                2002, p. A1.




        NIIS is an automated central repository of nonimmigrant arrival and departure
        5

information.

U.S. Department of Justice                                                          2
Office of the Inspector General
Evaluation & Inspections Division
Scope and Methodology

       In our report, we discuss the visa process from the time aliens file
their visa applications through entering into the United States and the
processes used by immigrants and nonimmigrants in obtaining SSNs.
We divided the report into two parts because the methods of providing
immigrant and nonimmigrant information to the SSA differ greatly.
Part 1 discusses the immigrant process and Part 2 discusses the
nonimmigrant process. We examine the INS’s role in providing
immigrant status information to the SSA using Immigrant Visa
DataShare (DataShare), and nonimmigrant status information to the SSA
using the new verification process with NIIS.

       We conducted our review from May 22, 2002 to September 12,
2002. Our methodology included interviews with the INS, DOS, and SSA
staff responsible for DataShare and the implementation of the SSA’s
electronic access to NIIS information. We reviewed the Memoranda of
Understanding (MOU) between the INS and SSA and between the DOS
and SSA, the INS Inspector’s Field Manual, INS e-mail and
correspondence related to DataShare implementation and SSA access to
NIIS, DOS policy and procedures for immigrant and nonimmigrant visas
as implemented by the Office of Visa Services, SSA Program Operations
Manual System (POMS), SSA internal correspondence directing changes
in procedure for issuing SSNs to aliens, previous DOJ OIG and SSA OIG
reports, and INS and SSA congressional testimony.




U.S. Department of Justice                                               3
Office of the Inspector General
Evaluation & Inspections Division
               PART 1: THE IMMIGRANT VISA PROCESS


      This part of the review describes the process used by aliens to
apply for permanent residence in the United States. After the INS
approves the immigrant petitions, the aliens submit their applications for
immigrant visas at DOS consular posts.6 Aliens living in the United
States, including nonimmigrants, (e.g., students) can file applications
with the INS for adjustment of status to obtain legal permanent
residence.

       Immigrants coming to the United States are divided into two
categories: those who may obtain permanent residence status without
numerical limit and those subject to an annual limit. The Immigration
Act of 1990 (P.L. 101-649) sets the worldwide level of immigration for the
latter category with an annual maximum limit that ranges from 421,000
to 675,000 immigrants depending on admissions in the previous year.

Filing the Immigrant Visa Petition and Application

      The immigration process begins with a relative or prospective
employer of the intending immigrant filing a petition with the INS.7
When the INS approves the petition, it forwards the petition to the DOS’s
National Visa Center (NVC) in Portsmouth, New Hampshire.8

      The NVC retains the petitions until the cases are ready for
processing by consular officers. Petitions may remain at the NVC from a
few weeks to several years depending on visa availability.9 The NVC
forwards the petitions to the appropriate overseas consular posts when
applicants’ cases become current (i.e., visa numbers are likely to be
available within the year). The NVC also mails forms and information to
the intending immigrants.



       An alien is defined as a person who is not a citizen of the United States. An
        6

immigrant is an alien lawfully admitted for permanent residence in the United States.

        7 “Intending immigrant” is the term used by the INS to describe an alien who is

in the process of seeking immigrant status but has not yet been admitted to the United
States.

      8 The DOS opened the NVC in April 1994, where it processes all INS-approved

immigrant visa petitions.

        9Immigrant visas are issued in the chronological order in which the petitions
were filed until the numerical limit for the category is reached.
U.S. Department of Justice                                                              4
Office of the Inspector General
Evaluation & Inspections Division
       The intending immigrant completes and submits DOS Form
DS-230, Application for Immigrant Visa and Alien Registration, and
required supporting documents to the local consular post.10 A consular
officer reviews and verifies the information in the visa application, issues
the immigrant visa (IV), and prepares the IV package. The consular
officer seals the package and instructs the intending immigrant to deliver
it unopened to the INS inspectors (inspectors) at the port of entry (POE)
in the United States.

U.S. Port of Entry Inspection of Immigrants

      Upon arrival at the U.S. POE, aliens report to a secure INS
inspections area, which is divided into primary and secondary areas.
Aliens report to the primary inspection area where they are processed by
inspectors. The inspectors complete primary inspection of various
categories of aliens and citizens by determining identity and examining
the applicants' travel documents. Immigrants usually are sent to
secondary inspections for further processing.11

       The inspectors in secondary inspections complete a variety of tasks
to create permanent records for the arriving alien. When the inspectors
determine that an immigrant is admissible into the United States, they
process the IV package. The immigrant’s identity is confirmed by
comparing the photograph attached to the IV to the immigrant and is
also cross-checked with the passport.12 The inspectors verify eligibility
for the visa classification indicated on the visa and verify that personal
data (e.g., gender and marital status) and the mailing address on the
front of the visa are correct. The inspectors examine the immigrant visa
to ensure it is valid and unaltered.




        10 Required documents include: passport valid for at least six months beyond
the visa issuance date, certified copies of intending immigrant’s birth certificate, police
certificates from each locality in which the intending immigrant has resided, court and
prison records if applicable, military records, photographs for official documents, and
marriage certificates.

       11 New York and San Francisco POEs process nonimmigrants in the primary

inspection lanes.

         If a passport is unavailable, the immigrant’s appearance is compared to
        12

government-issued identification containing the immigrant’s name, date of birth,
and/or signature.

U.S. Department of Justice                                                                    5
Office of the Inspector General
Evaluation & Inspections Division
      When the immigrant is admitted, the INS provides the immigrant
with temporary evidence of permanent resident status until it produces
the Alien Registration Receipt Card (INS Form I-551). If the immigrant
has a passport, the inspector amends the passport with:

        •     An admission stamp with the class of admission and A-number,

        •     A “Processed for I-551” stamp, and

        •     A “valid to” date of 12 months from the date of admission.13

      If the alien does not have a passport, the inspector uses Form I-94,
Arrival/Departure Record to create temporary evidence of permanent
resident status.14 The inspector completes the arrival portion of the
Form I-94 and adds:

        •     A photograph of the immigrant,

        •     A “Processed for I-551” stamp,

        •     A “valid to” date of 12 months from the date of admission,

        •     An embossed INS dry seal that covers portions of the
              photograph and the “Processed for I-551” stamp,

        •     The immigrant’s A-number,

        •     The date and code of admission, and

        •     A press print of the immigrant’s right index finger.

      The inspector completes Form I-89, I-551 or I-586 Card Data
Collection Form, and places it in the IV package along with other
required documents, such as a birth certificate, fingerprints, and


        13 Class of admission, which corresponds to the visa class [classification],

identifies the legal provision under which an immigrant is admitted. Class of admission
codes are the symbols representing each category of immigrant within that class of
admission. For example, immigrant visas issued to spouses of U.S. citizens belong to
the class of admission for Immediate Relatives, Spouse of U.S. citizen (admitted under
INA 201(b)) and the admission code is IR1. The A-number, or alien number, is a unique
identifier assigned to each immigrant.

        14   Immigrants are not required to complete Forms I-94.

U.S. Department of Justice                                                           6
Office of the Inspector General
Evaluation & Inspections Division
photographs.15 The immigrant is then a lawful permanent resident of the
United States. The inspector tells the immigrant that the INS will mail
the Alien Registration Receipt Card to the address on the immigrant visa
and to check with the local INS district office if the card does not arrive
within four to five months.

      The POE is required to forward the complete IV package to an INS
service center within 24 hours of the alien’s admission to the United
States.16 The service center processes the IV package, produces the
Alien Registration Receipt Card, and mails it to the immigrant.

Issuing Social Security Numbers to Immigrants

       Following admission to the United States, immigrants go to SSA
field offices to complete Forms SS-5, Application for a Social Security
Card, to obtain SSNs. The SSA requires immigrants to provide the
following evidence of eligibility to receive SSNs:

        •     Age – A document, such as a birth certificate, that is at least
              one year old, that shows name and date of birth or age;

        •     Identity – A document, such as a drivers license, that was
              issued recently and contains a photograph; and

        •     Evidence of Work Authorized or Lawful Alien Status – An INS
              document, including an Alien Registration Receipt Card,
              properly annotated passports, or Forms I-94.

       Prior to September 1, 2002, the SSA policy did not require its field
office staffs to verify an immigrant’s status (class of admission) with the
INS when the immigrant was in the United States less than 30 days and
the documents presented by the immigrant appeared valid. The SSA’s
rationale was that the INS would not yet have the immigrant’s
information in its automated systems and therefore would not be able to
verify the immigrant’s status. Effective September 1, 2002, the SSA
instituted a policy change in its procedures for issuing SSNs to aliens.
The SSA’s new policy requires its field office staffs to receive INS
verification for all INS-issued documents used as evidence of work
eligibility before issuing SSNs to aliens.


        15   The Form I-89 provides the data required to generate the Form I-551 or I-586.

         Most IV packages go to the Texas Service Center. The California Service
        16

Center processes all IV packages serviced by district offices in California.

U.S. Department of Justice                                                               7
Office of the Inspector General
Evaluation & Inspections Division
      The SSA verifies the immigrant’s status through the SAVE program
using the Alien Status Verification Index (ASVI) system. The SAVE
program provides a means for federal, state, and local benefit issuing
agencies and institutions to verify the immigration status of alien
applicants for, or recipients of, public benefits. As mandated by the
Immigration Reform and Control Act (IRCA) of 1986 (P.L. 99-603), the
INS established ASVI, a nationally accessible database, of selected
immigration status information on approximately 60 million alien
records. Entitlement agencies electronically access this database and
pay between $.02 and $.22 per query depending upon the access
method. This automated process is known as primary verification.

      All SSA field offices have access to ASVI. The immigrant’s
A-number is entered into the ASVI system. The system provides a
response within three to five seconds. The response is compared to the
immigration status as represented on the documents provided by the
immigrant.

        When an immigrant has been in the United States for less than ten
days and the ASVI response does not confirm the immigrant’s status
(i.e., the immigrant’s information is not in ASVI), the SSA enters the
application in the Modernized Enumeration System (MES) as a “suspect”
document.17 The SSA queries ASVI again when the immigrant has been
in the United States more than ten days. If the second query is
unsuccessful, the SSA uses secondary verification to validate the INS
documents.

       In secondary verification, the SSA prepares an INS Form G-845,
Document Verification Request. The SSA mails the form and copies of
the immigrant’s INS documents to the local INS district office for
verification of the immigrant’s status.18 The INS processes the SSA’s
query and mails the response to the SSA field office. The response time
varies from 10 to 20 workdays.19

        The application remains pending in MES until the INS verifies the validity of
        17

the document and the SSA clears the application.

       18 The SSA completes INS Form G-845 and sends it and copies of the INS

documents presented with the SSN application to the INS where an INS employee
checks multiple databases, makes notations as to work eligibility on the form, and
returns it to the SSA field office.

       19 The response time for mandated agencies is 10 days and nonmandated

agencies, 20 days. The term “mandated” refers to those programs and overseeing
agencies required by the IRCA and Personal Responsibility and Work Opportunity
Reconciliation Act of 1996, P.L. 104-193, 110 Statute 2168 to verify an applicant’s
immigration status. The SSA is a nonmandated agency.
U.S. Department of Justice                                                              8
Office of the Inspector General
Evaluation & Inspections Division
While waiting for a response, the SSA queries ASVI weekly. If the SSA
receives verification from ASVI before the secondary verification response
is received, it completes the SSN application process.

       Once the ASVI check or the secondary verification process
confirms the immigrant’s status, the application is certified and entered
into MES. During processing, MES performs automatic edits for missing,
misplaced, or inappropriate data. 20 When the application passes the
edits, MES produces an SSN card for the immigrant, usually within five
workdays.

      The current immigrant processing from initial visa application to
issuing an SSN is shown in Figure 1 on the next page.




        20Examples of missing, misplaced, or inappropriate data include alpha
characters in fields designated as numeric only, unidentifiable state postal codes, or
blank fields.

U.S. Department of Justice                                                               9
Office of the Inspector General
Evaluation & Inspections Division
    Figure 1. Current Immigrant Processing From Visa Application
    Through Issuance of a Social Security Number
                                             Alien files immigrant     DOS consular officer
     NVC notifies the
                                             visa application with        reviews and
   alien that his or her
                                              the DOS consular           approves the
    petition is current.
                                                 post that has            application.
                                                  jurisdiction.




                                             Upon arrival at POE,      DOS consular officer
                                              alien reports to the       issues visa. Alien
                                                INS inspections           may commence
                                                     area.             travel to a U.S. POE.




  INS inspectors:
  1. Perform a lookout check in IBIS and the immigrant
      proceeds to secondary inspection.
  2. Inspect passport, visa, and all INS documents and                Immigrant applies for SSN at
      verify personal data.                                          the SSA field office, presenting
  3. If all documents are acceptable, admit immigrant,                 appropriate documentation.
      stamp the passport, and issue a Temporary
      Evidence of Permanent Resident Status using the
      alien’s passport or Form I-94 (if the alien does not
      have passport).

                                                                     Alien’s status is verified through
                                                                             the ASVI system.



Secondary inspection initiated by the SSA.
  1.  The SSA completes INS Form G-845.
  2.  The SSA submits form to the local INS district
      office with copies of suspect INS documents.
  3.  The INS returns form with alien status.
                                                                       If status cannot be confirmed
                                                                           by ASVI system, initiate
                                                                            secondary verification.


                                                                         Alien’s status is confirmed
                                                                               through ASVI.
  INS documents invalid.             INS documents valid.
     Applicant status                  Applicant status
   cannot be confirmed.                 appropriate for
                                         employment.



    The SSA denies SSN
   for work purposes and                                                   The SSA accepts the
     notates the MES to                                                 application and issues SSN.
  flag future applications.


    U.S. Department of Justice                                                              10
    Office of the Inspector General
    Evaluation & Inspections Division
Immigrant Visa DataShare

        Immigrant Visa DataShare, initiated in June 1995, allows the INS
and DOS to electronically exchange data and track an immigrant’s
petition and application throughout the immigration process from initial
filing to the immigrant’s admission at a POE. DataShare is not a
separate data system. It integrates existing INS, DOS, and U.S. Customs
Service (USCS) data systems to process, transmit, and share information
between the agencies. The petition and application information moves
electronically with the immigrant’s file as it is processed, eliminating the
need for reentering information at each step of the immigration process.
DataShare can also be used to detect fraud because aliens presenting
altered or counterfeit documents will not have a corresponding record in
DataShare. The DOS and INS can verify information to make better-
informed decisions regarding whether to issue visas or admit aliens into
the United States.

       DataShare has improved the speed of data transfer as well as the
quality of the data. By receiving immigrant visa petition information at
the NVC electronically, the DOS reduced its data entry workload. In
addition, the INS sends the immigrant visa hard-copy petitions to the
NVC, so the NVC can compare the electronic and hard-copy information
to ensure that the information matches. The availability of immigrant
visa information to inspectors at POEs via the Interagency Border
Inspection System (IBIS) provides a mechanism to verify the immigrant’s
visa status.21 Visa status information is available through DataShare
usually within eight hours from the time the immigrant visa is issued at
a DOS consular post.

      In FY 2001, the DOS processed 615,979 IVs, approving 396,689 of
them and disapproving 219,290. DataShare processed 240,340 IVs
(61 percent) issued by 15 consular posts. In February 2002, the DOS
expanded DataShare to all 126 immigrant visa-issuing consular posts.
Currently, 16 POEs use DataShare to process immigrants.

SSA’s Participation in Immigrant Visa DataShare

      In response to the terrorist attacks on September 11, 2001, the
SSA reviewed its policies and procedures and determined that
enumeration at entry, the electronic processing of immigrant SSN
applications, would be more secure than its current method of


         The USCS maintains IBIS, which provides the law enforcement community
        21

with access to computer-based law enforcement files of common interest.

U.S. Department of Justice                                                       11
Office of the Inspector General
Evaluation & Inspections Division
processing SSN applications.22 The enumeration at entry process is
described in Figure 2 on the next page.

       To support SSA’s enumeration at entry process, the INS and SSA
Commissioners signed an MOU in 2000 that governs the extension of
DataShare to electronically deliver information on admitted immigrants
to the SSA. The goals of this project are to:

        •    Reduce proliferation of fraudulently obtained SSN cards,

        •    Streamline data collection,

        •    Reduce duplicative efforts between government agencies, and

        •    Reduce the burden on immigrants who must currently go to an
             SSA field office and provide the same information provided to
             the DOS and INS.




        22Testimony of SSA Deputy Commissioner, James B. Lockhart III, before the
Senate Finance Committee, Subcommittee on Social Security and Family Policy,
July 11, 2001.

U.S. Department of Justice                                                          12
Office of the Inspector General
Evaluation & Inspections Division
      Figure 2. Immigrant Processing From Visa Application Through
          Application for Social Security Number Using DataShare


  NVC notifies the                        Alien files immigrant      DOS consular officer
alien that his or her                     visa application with         reviews and
 petition is current.                      the DOS consular            approves the
                                              post that has             application.
                                               jurisdiction.




                                                                     DOS consular officer
                                            Upon landing at            issues visa. Alien
                                          POE, alien reports to         may commence
                                           the INS inspection        travel to a U.S. POE.
                                                 area.




INS inspectors:
  1. Perform a lookout check in IBIS and verify status.
  2. Inspect passport, visa, and all INS documents and
      verify personal data.
  3. If all documents are acceptable, admit the
      immigrant, stamp the passport and issue a
      Temporary Evidence of Permanent Resident
      Status using the alien’s passport or Form I-94 (if
      the alien does not have passport).




            INS systems updated and                               Data required for issuance of
             DataShare file compiled.                              SSN electronically sent to
                                                                              SSA.




                                                                     The SSA accepts the
                                                                  application and issues SSN.




  U.S. Department of Justice                                                            13
  Office of the Inspector General
  Evaluation & Inspections Division
       The MOU states that the INS will transmit to the SSA specified
enumeration data elements for aliens age 18 years and older who have
requested original SSN cards and who have been admitted as lawful
permanent residents at specific POEs that use DataShare. The INS will
transmit 16 data elements through Immigrant Visa DataShare to the
SSA. These data elements are: A-number, name, date of birth, place of
birth, mother and father’s first, middle and last names, immigrant class
of admission, and the alien’s request for an SSN card and the alien’s
consent for data transmission between the INS and SSA.

      An immigrant who requests an SSN card, consents to the
disclosure of personal information to the SSA, and enters the United
States through POEs using DataShare will not have to apply for an SSN
at an SSA field office. The SSN card will be produced and mailed to the
immigrant as soon as the SSA receives electronic notification from the
INS that the immigrant has been admitted. If the immigrant enters the
United States through a POE that does not use DataShare, the
immigrant will have to apply for an SSN at an SSA field office. In those
cases, the SSA will issue an SSN only upon verification of the alien’s
status by the INS.

       The SSA agreed to reimburse the INS for any technology
improvements or modifications needed to transmit data to the SSA, to
change INS forms, to collect or input data, and to train INS personnel.
The SSA plans to pay $834,200 to the INS to reimburse expenses in
fiscal years 2002 and 2003.

       DataShare will allow the INS to transfer its immigrant information
directly into the SSA’s MES and initiate the process for issuing SSN
cards. This process will eliminate the need for (1) immigrants to
complete additional forms for an SSN, (2) the SSA and INS staff to verify
INS documents, and (3) the SSA to process information from additional
forms. This process should also reduce the use of falsified or counterfeit
INS documents to obtain SSNs because SSNs will be issued based on
information directly supplied by the INS and not documents provided by
the aliens.23

      The 16 POEs that currently use DataShare process approximately
80 percent of all immigrant visas. Depending on funding availability, the
INS plans to expand DataShare to all POEs.



         Aliens who become legal permanent residents through a change of status are
        23

not currently included in DataShare.

U.S. Department of Justice                                                        14
Office of the Inspector General
Evaluation & Inspections Division
INS Implementation of Immigrant Visa DataShare

       We conclude that the INS will implement the enumeration phase of
the DOS/INS Immigrant Visa DataShare process as soon as the SSA
completes making its modifications for DataShare and the DOS
completes programming changes needed to transmit the applicable SSA
data. We found that the INS is able technologically to provide the SSA
immigrant status using DataShare. The INS and the DOS have shared
immigrant petition and application data using DataShare since 1995.
The DOS has successfully transmitted immigrant visas from 15 consular
posts to the INS, which accounted for 60 percent of the immigrant visas
issued by the DOS. Since the DOS expanded DataShare to all of its 126
visa-issuing consular posts, the INS has not experienced any significant
technological difficulties with the program.

      We found that the INS and the DOS have already made software
modifications to accommodate the SSA’s participation in DataShare. In
June 2002, the INS and the DOS tested their portions of DataShare and
stated that they are confident that their portions of the system work.
However, the SSA did not participate in the test because it was
addressing the communications protocol and data formatting convention
issues.

      The INS and DOS officials told us that they will conduct a pilot
project involving three consular posts in October 2002.24 The pilot
project will test the system modifications with real-time data and the INS
anticipates that the pilot project will run for 30 to 60 days. After
completion of the pilot project, the DOS plans to install the upgraded
software in all of its consular posts. The DOS anticipates that all
consular posts will have the upgraded software by December 2002.

INS Management of Immigrant Visa DataShare

      Although the INS has been successful in implementing the
enumeration phase of DataShare, we found that the INS has not
assigned specific tasks and responsibilities for managing DataShare to
the appropriate offices. It also has not addressed other key elements in
implementing the DataShare program.

      Responsibilities for the effective operation of DataShare and
transfer of that data to the SSA are split among three INS entities:


         The consular posts are: Manila, Philippines; Ciudad Juarez, Mexico; and
        24

London, England.

U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation & Inspections Division
Inspections, Information Resources Management (IRM), and Strategic
Information and Technology Development (SITD). The Immigration
Services Division, as a user of the DataShare information, also provides
key input to the program. Inspections identifies an automation need,
IRM develops the technological solution, and SITD acts as liaison
between the two entities.

      The INS has not formally documented the responsibilities and
tasks of each INS entity for implementing and managing DataShare. As
a result, none of the entities has taken the responsibility to develop and
implement policies, procedures, performance measures, and
management controls. Inspections, as the primary user of DataShare,
has the responsibility to ensure that its inspectors have the expertise
and guidance to appropriately implement DataShare.

       We also found that the INS also has not developed performance
measures or management controls for DataShare. Even if the INS had
policies and procedures in place, the INS managers would have difficulty
monitoring the program, identifying problems, and taking corrective
actions if performance measures and management controls are not in
place. The INS managers must know if the program is functioning as
intended.




U.S. Department of Justice                                               16
Office of the Inspector General
Evaluation & Inspections Division
           PART 2: THE NONIMMIGRANT VISA PROCESS


      This part of the review describes the process used by aliens to
apply for admission to the United States as nonimmigrants. A
nonimmigrant is an alien admitted to the United States for a specified
purpose and a temporary period. The INS counted 31.4 million
nonimmigrant admissions in fiscal year 1999. Of these, 1.78 million
admissions were in classes that allowed or required the nonimmigrants
to work.25

     Table 1 shows the number of nonimmigrant admissions in 1999 by
work-authorized class of admission.

 Table 1. Work Eligible Nonimmigrant Admissions in 1999
 By Class of Admission
     Admission                          Class of Admission                         Number
       Code
        E           Treaty trader or investor                                       151,353
        F           Foreign academic student, when certain conditions are met       557,688
        H           Temporary worker                                                374,509
         I          Foreign information media representative                         31,917
        J           Exchange visitor, when certain conditions are met               275,519
        L           Intra-company transferee                                        234,443
        O           Temporary worker in the sciences, arts, education, business,     19,194
                    or athletics
           P        Temporary worker in the arts or athletics in an exchange or      48,471
                    cultural program
          Q         Cultural exchange visitor                                          2,485
           R        Temporary religious worker with a nonprofit organization          12,687
          TN        Professional business worker admitted under NAFTA                 68,345
         Total                                                                     1,776,611
 *

Source: 1999 Statistical Yearbook of the Immigration and Naturalization Service

        25 There are significant limitations in the data available from the INS with

respect to tracking individual nonimmigrants. Because the data are derived from the
collection and tabulation of Forms I-94, the data represent admissions rather than
individuals. Because a Form I-94 is collected each time a nonimmigrant enters the
United States and because nonimmigrants may enter and leave the United States
several times during any year (e.g., students returning home during vacation breaks or
temporary workers returning home to attend to personal business), the number of
arrivals do not equal the number of nonimmigrants admitted.

U.S. Department of Justice                                                            17
Office of the Inspector General
Evaluation & Inspections Division
Filing the Nonimmigrant Visa Petition

       Prospective employers or sponsors file visa petitions, INS
Form I-129, Petition for a Nonimmigrant Worker, on behalf of aliens who
apply for nonimmigrant visas as temporary workers (H), intra-company
transferees (L), individuals with extraordinary ability (O), internationally
recognized athletes or entertainers (P), or cultural exchange program
participants (Q).

       When the INS approves the petition, it notifies the appropriate
consular post, which in turn notifies the nonimmigrant. The consular
officer provides the nonimmigrant with instructions for obtaining and
completing necessary forms, providing supporting documentation, and
completing the visa application process.

       The INS notifies the petitioner on Form I-797 whenever a visa
petition, an extension of a visa petition, or an extension of stay is
approved under any of the above visa categories.

Filing the Nonimmigrant Visa Application

      When the consular post notifies an alien that the petition for
admission has been approved, the alien completes a DOS Form DS-156,
Nonimmigrant Visa Application. Under DOS requirements, all male
nonimmigrant visa applicants between the ages of 16 and 45 also
complete and submit a Form DS-157, Supplemental Nonimmigrant Visa
Application.

       One of the key criteria for determining nonimmigrant visa eligibility
is the likelihood that aliens will return to their countries of origin when
their visas expire and not remain in the United States as illegal
“overstays.” Nonimmigrants may also need to show proof of binding ties
to a residence outside the United States, which they have no intention of
abandoning.

      All aliens applying for nonimmigrant admission under work
authorized visa categories must also have a passport valid for at least six
months plus the length of time they will be allowed to work in the United
States, and a photograph for use in their visa.

      Each visa category requires specific information, which must be
provided at the time of application. Examples of additional information
include transcripts and diplomas from institutions previously attended,
and financial evidence that shows sponsors have sufficient funds to cover
expenses during the applicant’s stay in the United States.
U.S. Department of Justice                                                18
Office of the Inspector General
Evaluation & Inspections Division
       The consular officers review and verify the information in the visa
application package. Of particular interest is information that indicates
the immigrant intends to return home after the visa expires. If the
application is approved, the consular officers issue the nonimmigrant
visa. The alien must pick up the visa in person at the consular post
where the application was originally made. When issuing a visa,
consular officers advise the alien that a visa does not guarantee entry
into the United States and that the INS has the authority to deny
admission at the POE.

      All visa categories have time limits set by the INS in which the
temporary worker may perform services in the United States. The
consular officers advise aliens that the INS determines the period for
which the bearers of temporary work visas are authorized to remain in
the United States, and the INS makes the decision to grant or deny
requests for extensions of stay.

U.S. Port of Entry Inspection of Nonimmigrants

      Before arriving in the United States, nonimmigrants complete INS
Forms I-94. Nonimmigrants report to the INS inspections area where
inspectors determine the validity and authenticity of passports and visas.
The inspector compares the passport photograph to the nonimmigrant
presenting the passport and queries the passport number in IBIS. The
Inspectors make a determination that the nonimmigrant intends to leave
the United States when the visa expires. Finally, the inspectors also
perform a look out query in IBIS to determine if a law enforcement
agency has interest in the nonimmigrant. If the passport is valid and the
IBIS query produces no adverse or conflicting information, the inspectors
admit the nonimmigrant and endorses the passport with the admission
stamp. All nonimmigrants authorized to work have visas, which the
inspector also examines for validity and authenticity.

       After the passport and visa are reviewed, the inspector examines
the nonimmigrant-completed portion of Form I-94 for accuracy and
legibility and then completes the remainder of Form I-94. This
information is eventually entered into the INS’s NIIS.

      Most nonimmigrants are processed through primary inspections
unless an inspector determines the documents presented require closer
review. In those cases, nonimmigrants are referred to secondary
inspections, where discrepancies are resolved or admission is denied.




U.S. Department of Justice                                                19
Office of the Inspector General
Evaluation & Inspections Division
Processing and Transmitting Forms I-94

       The arrival portions of the Forms I-94 are shipped at least once
daily to the INS data entry contractor (DEC) usually within 48 hours of
receipt at the POE.26 The DEC converts the Forms I-94 into an electronic
image through a scanning process, which facilitates data entry and
allows for quick distribution of the workload to subcontractors when
necessary. The DEC enters data from Forms I-94, usually within 72
hours of receipt.27 After the DEC performs its internal quality assurance
activities, the batch update file is transmitted to the database contractor
(DC), for validation processing and uploading to the DOJ mainframe
computer.28

     The DC receives the batch update file, performs pre-upload quality
assurance validation, and uploads the data to NIIS. Quality assurance
may take 8 to 10 hours, and the actual data upload can take 14 to 16
hours for file sizes of 200,000 – 225,000 records.

Issuing Social Security Numbers to Nonimmigrants

Previous Enumeration Process for Nonimmigrants

       Before September 1, 2002, the SSA could not electronically confirm
the work eligibility status of nonimmigrant applicants for SSNs.
Although the SSA participates in the SAVE program, as described earlier
in this report, SAVE could not provide the SSA with nonimmigrant
information because only immigrant information was contained in the
ASVI database.



         The POEs do not ship Forms I-94 to the DEC on weekends and holidays.
        26

Memorandum from Michael Pearson, Executive Associate Commissioner, Office of Field
Operations to all INS Regional Directors dated September 28, 2001, instructed air and
sea POEs to forward Forms I-94 to the DEC twice per day, rather than once per day as
previously instructed. Land POEs are to send Forms I-94 daily rather than weekly,
except those with large numbers of Forms I-94. They are to send the forms twice per
day.

        27   The DEC and the DC do not work weekends and holidays.

        28 Batch processing requires the data to be entered into an interim file that is

built by the data entry process. Once all of the data is entered into that file or
“batched,” the file is uploaded into the NIIS database. Due to the nature of the system
(both hardware and software), this uploading takes place at off hours to minimize
competing activities (conducting queries and loading data) on NIIS thus slowing the
system response time for end users.

U.S. Department of Justice                                                             20
Office of the Inspector General
Evaluation & Inspections Division
      If a nonimmigrant applicant presented suspect INS documents, the
SSA would use the paper-based, labor-intensive secondary verification
process based on the completion of INS Form G-845. The SSA completes
INS Form G-845, Document Verification Request, and sends it and
copies of the INS documents presented with the SSN application to the
INS. The INS checks the database to determine document validity and
makes notations as to work eligibility on the form and returns it to the
SSA field office.

       Conducting secondary verifications on all nonimmigrant applicants
can add several weeks to the SSN application process.29 The SSA
believes that secondary verification penalizes legitimate work-eligible
nonimmigrants by delaying the issuance of an SSN. Also, because of its
labor-intensive nature, secondary verification produces a significant
increase in the workload of the SSA field offices. Based on these
concerns, prior to September 1, 2002, the SSA only used secondary
verification to check suspect documents. Therefore, the SSA issued an
SSN to any nonimmigrant applicant presenting what appeared to be a
valid INS document in support of the application.

      In effect, the SSA was the arbiter of document validity. The SSA’s
reliance on its field office staff to verify INS documents increased the
possibility of fraud going undetected.

New SSA Procedures for Issuing SSNs to Nonimmigrants

       On September 1, 2002, the SSA changed its procedures for issuing
SSNs to nonimmigrants. Under the new procedures, the SSA verifies
with INS all INS documents presented by nonimmigrants applying for
SSNs. The SSA refers to this as “Total Document Verification.”30 To
reduce the INS and SSA document verification workload and to speed up
issuing the SSNs, the INS began providing electronic access to portions
of NIIS to the SSA field offices using the existing ASVI database.

      Every nonimmigrant admitted to the United States under a class of
admission that permits work completes a Form I-94. Class of admission
information, as shown on Form I-94, is now directly available to the SSA,
which reduces the need for the paper-based, secondary verification
process, saving the INS and SSA staffs’ time and facilitating faster
issuance of the SSN.


        29   Queries can take 20 work days or more to be returned by the INS.

        30   SSA Emergency Message EM-02091 issued August 8, 2002.

U.S. Department of Justice                                                      21
Office of the Inspector General
Evaluation & Inspections Division
       The INS successfully tested the concept in June 2002 and made
NIIS data available to all SSA field offices on July 15, 2002. The SSA
field offices access NIIS data using ASVI, the database that supports the
SAVE program. The SSA completed a phased implementation of the new
procedures September 1, 2002.

      The nonimmigrant SSN applicant completes Form SS-5,
Application for a Social Security Card, and presents documents to the
SSA that address the following required identifiers:

        •    Age – A document, at least one year old, which shows name and
             date of birth or age. The most common documents for aliens
             are foreign birth certificates, passports, or INS records;

        •    Identity – A recent document that verifies identity (not a birth
             certificate). The most common documents for aliens are
             passports or INS records; and

        •    Evidence of Work Authorized or Lawful Alien Status – An INS
             document that shows class of admission. For nonimmigrants,
             documents include a properly completed Form I-94 or
             Form I-688B, Employment Authorization Document (EAD).

       Nonimmigrants must produce Form I-94; Form I-20 ID, Certificate
of Eligibility for Nonimmigrant Student Status (for certain students); or
the IAP-66 (sponsor letter for exchange visitors), as evidence of
employment authorization. The documents must contain all of the
following information:

        •    A statement of any regulatory limits on the time elements
             involved and a definite date as to when employment begins and
             ends;

        •    A statement of any regulatory limits on the type of employment
             authorized (as for example in F and M cases), or the statement
             "WITHOUT FURTHER LIMITATION," if no such regulatory limits
             exist; and




U.S. Department of Justice                                                      22
Office of the Inspector General
Evaluation & Inspections Division
        •    The date of action and the INS office’s three-letter identifying
             code or the identifying number of the INS officer authorizing
             employment. 31

     Nonimmigrants authorized to work based on their class of
admission must present the departure portion of their Forms I-94. The
form must have a valid admission stamp that contains:

        •    Information about the alien’s POE, date of inspection, and the
             inspection officer's identification,

        •    A stamp identification number, which usually appears on the
             same line as the POE, and

        •    The alien's class of admission and the validity date (i.e., the
             date admitted until), which is signed in ink by the admitting
             inspector.

       If the documents presented by the nonimmigrant appear valid, the
SSA verifies the nonimmigrant’s INS documents by querying ASVI, which
provides access to the NIIS data. If ASVI verifies the nonimmigrant’s
status and there are no discrepancies between the information from the
response and the documents presented, the SSN application is
processed, and the nonimmigrant receives an SSN card within five
workdays. If there is a discrepancy in the information (e.g., name, date
of birth), the SSA initiates secondary verification. It also inputs the SSN
application information and codes the application as “suspect.”

       If ASVI cannot confirm the nonimmigrant’s status (i.e., the
nonimmigrant’s information is not in the NIIS) and the nonimmigrant
has been in the United States for less than ten days, the SSA inputs the
SSN application in MES and codes the application as “suspect.” The SSA
will re-query ASVI after the nonimmigrant has been in the United States
more than ten days. If the second query is unsuccessful, the SSA uses
the secondary verification process to verify the INS documents. While
waiting for a response, the SSA continues to re-query ASVI weekly. If
ASVI verifies the nonimmigrant’s status before the secondary verification
response is received, the SSA completes SSN application processing.



       31 Nonimmigrants whose work authorization is incident to their class of

admission do not have an employment authorization stamp on their Form I-94. EADs
are issued only to nonimmigrants who have filed an Application for Employment
Authorization.

U.S. Department of Justice                                                      23
Office of the Inspector General
Evaluation & Inspections Division
      If the INS has not responded to a secondary verification request
within 20 workdays, the SSA contacts the local INS district office. If the
INS still does not provide a response, the case is referred to the SSA
Regional Office, which pursues the issue with the local INS district office.

      If the SSA is suspicious about the validity of the documents
presented, it enters the information from the SS-5 in the MES, codes it
as “suspect,” and immediately requests a secondary verification.32
Coding an application as suspect stops further processing of the
application and requires the field office to maintain custody of the
documents until issues are resolved. If the INS response to the
secondary verification request cannot verify the nonimmigrant’s status,
the SSA codes the SSN application as “fraudulent.”

       Applications pending as suspect in the MES remain suspect until
either the INS verifies the document and the SSA clears the application,
or 120 days pass, at which time the application is deleted.

INS Processing Time for Nonimmigrant Data

       According to the information we received, we conclude that the INS
never established a 1-week standard for updating NIIS. The SSA cited
new standards announced by the INS in December 2001 that require INS
POEs to ship Forms I-94, Arrival/Departure Record, to the INS’s data
entry contractor within two days of the nonimmigrant’s admission into
the United States. The new standards also require the data entry
contractor to process the Forms I-94 and upload the data into a database
within three days of receipt of the forms. From this information, SSA
officials inferred that the NIIS data would be available to it within five
days of a nonimmigrant’s admission. However, this conclusion was not
correct, because the new INS time standards apply to only a part of the
entire procedure necessary to process the admission records and update
NIIS. When the data entry contractor completes processing the Forms
I-94, the data is transmitted to another database contractor at a different
location for additional processing, which requires additional time before
the information is uploaded into NIIS.


        32 The SSA uses the Administrative-Confidential Memorandum to review the

documents presented by the nonimmigrant applicant. The Administrative-Confidential
Memorandum is an INS-prepared, controlled and limited distribution document that
provides complete descriptions of common things to look for in counterfeit or fraudulent
documents. Samples of real INS documents are included. The SSA also views the INS
documents under a black light to check for security ink. The INS uses special security
ink for most of its inspection stamps, which fluoresce under a black light. The ink is
manufactured and distributed on a tightly controlled basis.

U.S. Department of Justice                                                           24
Office of the Inspector General
Evaluation & Inspections Division
       In response to our review, the INS estimated that the entire
process to upload nonimmigrant information into NIIS should take
approximately 11 to 13 workdays, not 5 workdays. The INS does not
track the actual time required for collecting and processing the
information. Based on our review, we believe the INS’s estimate that it
can make NIIS data available through ASVI within 11 to 13 workdays
after nonimmigrant admissions is based on reasonable approximations
and assumptions. The SSA informed us that through an informal survey
it conducted in September 2002 the SSA estimated that 60 percent of the
I-94 data is available to it within 10 calendar days of nonimmigrant
admissions into the United States.

       ASVI is the electronic system that acts as an information conduit
for the SSA field offices to access selected NIIS data elements. The INS
updates NIIS with Forms I-94 data after a nonimmigrant is admitted. It
uploads selected NIIS data elements into ASVI. That data is then
available to the SSA field offices through the ASVI system. The
availability of the required information is dependent on uploading the
selected NIIS data elements, not on updating the ASVI database.

INS Ability to Ensure the Accuracy of Nonimmigrant Data

       In 1997, we issued a report that found that NIIS data was seriously
flawed in content and accuracy.33 Information we received from the
contractor performing NIIS quality control analysis showed that for the
3-month period October through December 1996, 6.4 percent of the
records received from the data entry contractor were rejected in the pre-
load edit. The pre-load edit examines critical fields to ensure that data
are present and valid. [There are seven critical fields in which an
omission or error will cause a record to be rejected (admission number,
first name, last name, date of birth, country of citizenship, date of
arrival, and class of admission).]

      In our April 2002 follow-up report on NIIS, we found that,
according to an official from the INS's Statistics Office, the unreliability of
nonimmigrant information continues to be a problem.34 As of
September 2002, the NIIS program manager told us that no definitive
assessment of NIIS data quality improvement could be made until he
develops and implements appropriate management controls.

       33 Immigration and Naturalization Service Monitoring of Nonimmigrant

Overstays, Report No. I-97-08, September 1997.

         Follow-Up Report On INS Efforts To Improve The Control Of Nonimmigrant
        34

Overstays, Report No. I-2002-006, April 2002.

U.S. Department of Justice                                                        25
Office of the Inspector General
Evaluation & Inspections Division
      The NIIS program manager told us that he is developing a monthly
“Fatal Error Report,” which will be implemented by the DEC at the end of
2002. This report will track the source of incorrect data and allow for
remedial action to improve data quality. The report will provide a list of
errors by POE, POE inspection station, stamp number, and type of error.

      The INS is also updating the Inspector’s Field Manual with new
instructions that will clearly state that inspectors should take the time
necessary to accurately and fully complete Form I-94 while the
nonimmigrant is present.




U.S. Department of Justice                                                  26
Office of the Inspector General
Evaluation & Inspections Division
                                    CONCLUSION


      This DOJ OIG limited review summarizes two systems that are
used by the INS and SSA to provide critical alien information to the
SSA – DataShare and NIIS. We found that the INS is able technologically
to provide information to the SSA using DataShare. The INS and DOS
have transmitted immigrant petition and application data using
DataShare since 1995 without experiencing any technological difficulties.
In June 2002, the INS and the DOS successfully tested their portions of
DataShare.

       However, to improve the INS’s capability to effectively share
information with the SSA using DataShare, we urge that the INS develop
policies and procedures for the implementation and management of
DataShare. In addition, the INS should develop performance measures
and management controls to monitor the performance of DataShare.

      We found that the INS never established a 5-day time standard for
the complete data updating process. The INS estimated that the
complete process to upload information about nonimmigrants into NIIS
should take approximately 11 to 13 workdays, not 5 workdays. This is
an estimate based on reasonable approximations and assumptions.




U.S. Department of Justice                                             27
Office of the Inspector General
Evaluation & Inspections Division
